 Ofﬁce of Inspector General



Review of RBOPS’ Oversight of the

   Next Generation $100 Note





Board of Governors of the Federal Reserve System




                                       January 2012

 
                                                  




                                           January 27, 2012



Ms. Louise L. Roseman, Director
Division of Reserve Bank Operations and Payment Systems
Board of Governors of the Federal Reserve System
Washington, DC 20551

Dear Ms. Roseman:

      The Office of Inspector General (OIG) of the Board of Governors of the Federal Reserve
System (Board) is pleased to present its report on the Review of RBOPS’ Oversight of the Next
Generation $100 Note. The Board is the sole issuer of U.S. currency and is responsible for the
quality of Federal Reserve notes. The next generation (NXG) currency redesign project, which
began in 2000, resulted in new designs for the $5, $10, $20, and $50 notes between 2003 and
2008. The NXG $100 note is the final denomination to be redesigned and includes the most
complex anti-counterfeiting security features ever incorporated into U.S. currency.

       Product development for the NXG $100 note began in 2006, and the Department of the
Treasury’s Bureau of Engraving and Printing (BEP) started production at its two facilities in
January 2010. In July 2010, the BEP observed a rapid increase in the frequency of NXG $100
note currency paper creasing during the printing process. The rate of creasing continued to
grow, and in September 2010, production was stopped at one BEP facility. The second BEP
facility continued to print a reduced number of NXG $100 notes to be used in tests to identify the
cause of the problem. Since there was no readily apparent resolution of the creasing problem,
the Board issued a press release on October 1, 2010, announcing a delay in the issuance date of
the redesigned NXG $100 note. Over 1.4 billion NXG $100 notes are in various stages of
completion.

      Our review objectives were to (1) assess the Division of Reserve Bank Operations and
Payments Systems’ (RBOPS’) oversight of the design and production of the NXG $100 notes;
(2) review the actions RBOPS is taking to address the current printing problems (including the
contract for an independent technical review) and to enhance controls to minimize the likelihood
of future printing problems; and (3) assess plans for the disposition of NXG $100 notes that have
already been printed.

      Our analysis determined that actions taken by RBOPS appropriately addressed the
identified printing issues and enhanced controls to minimize the likelihood of future printing
problems. In addition, we determined that RBOPS staff is participating in the assessment of
plans for the disposition of the more than 1.4 billion NXG $100 notes. We identified three areas,
Ms. Louise Roseman                             2	                              January 27, 2012

however, where RBOPS oversight of the Federal Reserve note design and quality control
production process could be strengthened:

   	 RBOPS staff should comply with requirements in a Memorandum of Understanding
      (MOU) that details the authorities, responsibilities, and understandings between RBOPS
      and the BEP, to include agreeing on a limited initial production quantity of newly
      designed currency;

   	 The Interagency Currency Design (ICD) workgroup, which provides technical guidance
      on currency design and other subjects that affect U.S. currency, should operate under an
      executed charter; and

   	 The current MOU between the Board and the BEP should be updated and expanded to
      incorporate the increased complexity of note design, quality control, and production.

     Our report contains recommendations to address the absence of (1) an approved and signed
ICD charter and (2) an updated MOU. We did not make a recommendation regarding
compliance with requirements in the MOU because, as discussed in our report, the Board and the
BEP agreed in September 2011 on a limited initial production quantity as part of an NXG $100
note production validation agreement. The purpose of this agreement is to ensure that all
technical problems are identified and resolved prior to restarting full production of the NXG
$100 note.

     We provided you with a copy of our report for review and comment. In your response,
included as Appendix 2, you agreed with our recommendations and discussed actions that have
been or will be taken to implement them.

      We appreciate the cooperation that we received from RBOPS staff during our review. The
principal OIG contributors to this report are listed in Appendix 3. The report will be added to
our public web site and will be summarized in our next semiannual report to Congress. Please
contact me if you would like to discuss the report or any related issues.

                                           Sincerely,



                                      Anthony J. Castaldo 

                                  Associate Inspector General 

                                for Inspections and Evaluations 


cc: 	 Vice Chair Janet L. Yellen
      Governor Elizabeth A. Duke
      Jeffrey C. Marquardt
                         




Office of Inspector General 



Review of RBOPS’ Oversight of the 

    Next Generation $100 Note 





Board of Governors of the Federal Reserve System 




                                         January 2012
 
 



                                                    Table of Contents

                                                                                                                                  Page 


Background ........................................................................................................................7 


Objective, Scope, and Methodology .................................................................................9 


Results .................................................................................................................................9 


Findings and Recommendations.....................................................................................12


Analysis of Comments .....................................................................................................15 


Appendixes........................................................................................................................17 


    Appendix 1 – Timeline ..................................................................................................19 


    Appendix 2 – Division Director’s Comments ...............................................................21 


    Appendix 3 – Office of Inspector General Principal Contributors to This Report ........23 





                                                                    5

 
 




 
 


Background
The design, production, and issuance of U.S. currency—Federal Reserve notes—involve several
federal agencies whose responsibilities and authorities are determined separately by statutes and
regulations. The Board of Governors of the Federal Reserve System (Board) is the sole issuer of
U.S. currency and is responsible for the quality of the Federal Reserve notes. The Department of
the Treasury’s Bureau of Engraving and Printing (BEP) designs the notes in collaboration with
the Board, the Federal Reserve Banks’ Currency Technology Office (CTO), and the U.S. Secret
Service (USSS).1 The BEP tests new currency designs and prints notes at two production
facilities—the Eastern Currency Facility (ECF) in Washington, DC, and the Western Currency
Facility (WCF) in Fort Worth, Texas. Armored carriers deliver packaged notes from the BEP
facilities to Federal Reserve Banks at the direction of the Board’s Division of Reserve Bank
Operations and Payment Systems (RBOPS).2 The Federal Reserve Banks then distribute the
notes to commercial banks for general circulation.

As shown in the timeline included in Appendix 1, the next generation (NXG) currency redesign
project began in 2000. In 2002, the Board and the BEP announced plans to issue several
denominations of newly designed Federal Reserve notes. The NXG project initially included the
$20, $50, and $100 notes and later added the $10 and $5 notes. The NXG $20 note was issued in
2003, followed by the $50 note in 2004, the $10 note in 2006, and the $5 note in 2008. The
NXG $100 note is the final note to be redesigned under this project.

Product development for the new design began in 2006. As shown in figure 1 on the next page,
the NXG $100 note design includes the most complex anti-counterfeiting security features ever
incorporated into a Federal Reserve note. The note’s advanced security features include (1) a
blue, three-dimensional (3-D) security ribbon woven into the paper that contains images of bells
and 100s that change from the one image to the other as the note is tilted, and (2) an image of a
color-shifting bell, inside a copper-colored inkwell, that changes color from copper to green
when the note is tilted. Despite the security enhancements, the new design for the $100 note
retains the traditional look of U.S. currency.




                                                            
              1
           The CTO operates under the Cash Product Office (CPO). It implements and maintains the systems and
infrastructure for high-speed automated authentication fitness assessment and the destruction of unfit notes.
         2
           RBOPS is a division within the Board that has responsibility for ordering and issuing Federal Reserve
notes. The Deputy Director responsible for the division’s Banknote Planning and Quality Control and Banknote
Issuance and Cash Operations is the Board’s representative on a multi-agency steering committee that provides
guidance on U.S. currency issues, including new designs.

                                                               7

 
 

                                   Figure 1:  Next Generation $100 Note




                              3‐D Security Ribbon                   Bell in the Inkwell 


Production of the NXG $100 note was delayed on multiple occasions due to the complexity of
the design, to include problems associated with the 3-D security ribbon. The initial March 2008
production start date was first rescheduled for late 2009, but continued problems resulted in
production not beginning until January 2010. On April 21, 2010, approximately three months
after production started, representatives from the Board, the Department of the Treasury, and the
USSS publicly unveiled the NXG $100 note and announced that circulation would begin in
February 2011. In July 2010, three months following the unveiling event, the BEP’s WCF
experienced a rapid increase in the frequency of NXG $100 note currency paper creasing during
the printing process.

During the NXG $100 note’s product development trials that took place between 2006 and 2009,
paper creasing occurred occasionally and was handled in accordance with the BEP’s standard
operating practices. Occasional creasing is considered normal during product development
and/or production. Creasing defects range from those that are easily identified by an area of the
note that is missing ink, to ones that require detection by a trained eye and/or magnification.

In response to the escalating paper creasing incidents observed in July 2010, the BEP
(1) immediately arranged for the currency paper supplier to observe the problem first-hand;
(2) informed the Board; and (3) documented the creasing problem in weekly and monthly reports
to the Department of the Treasury. In September 2010, the continued increase in the rate of
creasing prompted the WCF to stop production of the NXG $100 note. The ECF continued to
print a reduced number of NXG $100 notes to be used in tests to identify the cause of the
problem. Since there was no readily apparent resolution of the creasing problem, the Board
issued a press release on October 1, 2010, announcing a delay in the issuance date of the
redesigned NXG $100 note. Over 1.4 billion NXG $100 notes are in various stages of
completion; however, the actual number of creased notes is unknown. Approximately 1.1 billion
notes have been printed and packaged, approximately 166 million notes that do not meet quality
standards have been set aside, and approximately 200 million notes are at different stages of
production.

The BEP and the paper supplier conducted extensive research that included analyzing production
data and performing printing trials. However, these efforts did not identify the root cause of the
creasing problem or predict the likelihood of recurrence. As a result, in February 2011, the

                                                     8

 
 


Board expanded an existing management consulting firm contract for improving overall quality
practices at the BEP, to include evaluation of the NXG $100 note creasing issue.

Objective, Scope, and Methodology
The Board’s Office of Inspector General (OIG) and the Department of the Treasury OIG
conducted concurrent reviews of the problems experienced in printing the NXG $100 notes. The
Board OIG’s objectives were to

       	 assess RBOPS’s oversight of the design and production of the NXG $100 notes;

       	 review the actions RBOPS is taking to (a) address the current printing problems,
          including the contract for an independent technical review, and (b) enhance controls to
          minimize the likelihood of future printing problems; and

       	 assess plans for the disposition of NXG $100 notes that have already been printed.

To accomplish these objectives, we interviewed staff from the Board, the BEP, and the above
mentioned management consulting firm. We reviewed records and reports that included
memoranda of understanding (MOUs) between the Board and the BEP, interagency committee
charters, meeting minutes, BEP status reports, and the consulting firm’s interim reports. We
conducted our fieldwork from March 2011 through October 2011 in accordance with the Quality
Standards for Inspection and Evaluation issued by the Council of the Inspectors General on
Integrity and Efficiency.

Results
Objective 1: Assess RBOPS’s oversight of the design and production of the NXG $100
notes

As described earlier, the Board is the sole issuer of Federal Reserve notes, and RBOPS (on
behalf of the Board) is responsible for ensuring the high quality of the notes printed by the BEP.3
To fulfill this responsibility, RBOPS participates on a high-level multi-agency committee (the
Advanced Counterfeit Deterrence (ACD) Steering Committee) that (1) provides
recommendations on currency redesign to the Secretary of the Treasury, and (2) appoints or
approves all interagency working groups and monitors their progress. The ACD Steering
Committee is chaired by the U.S. Treasury Under Secretary for Domestic Finance, or his/her
designee, and includes the Treasurer of the United States; the Director of the BEP; the Board’s
Deputy Director of Financial Services, or his/her designee; the Reserve Banks’ CPO Director, or
his/her designee; and the Deputy Assistant Director, Office of Investigations, USSS, or his/her
designee.


                                                            
              3
          The Federal Reserve Act sets out the responsibilities of the Federal Reserve related to Federal Reserve
note issuance, destruction, and liability.

                                                               9

 
 


The ACD Steering Committee established the Interagency Currency Design (ICD) workgroup
that, according to November 2008 steering committee minutes, was to provide technical
guidance to the ACD Steering Committee on currency design and other subjects that affect U.S.
currency. The ICD workgroup consists of representatives from the Board, the BEP, the USSS,
and the CTO. The ICD workgroup is chaired by a BEP representative; meets nearly every
month; and discusses a wide range of topics, such as technical issues with the production of the
NXG $100 note, counterfeit statistics, and ways the new design can help the visually impaired.
Despite the important functions this group performs, the ICD workgroup operates under a charter
that has not been signed or approved by the ACD Steering Committee. The ICD charter is one
of two key documents that provides technical guidance and establishes basic responsibilities for
the Board, with the second document being an MOU between the Board and the BEP.

Prior to 1998, there was no formal written agreement that stated the authorities, responsibilities,
and understandings between the BEP and the Board to authorize the printing and shipping of
Federal Reserve notes, including responsibilities for the quality of new currency design, security,
maintenance of inventory, and procedures for the destruction of unfit currency.4 An MOU was
established between the Board and the BEP in 1998 in response to problems that occurred during
printing of newly designed $50 notes in 1997. The Government Accountability Office (GAO)
had reviewed this issue and provided testimony in late 1997, “Printing of Flawed Redesigned
$50 Notes,” that recommended that the Secretary of the Treasury and the Board

           1)	        Formalize an agreement to have the Board, the USSS, the BEP, and other relevant
                      Treasury officials involved early in the currency production process for future
                      redesigned notes to inspect production and agree on an acceptable level of quality;
 
           2)	        Limit initial production of newly designed currency to the number that would be
                      necessary to provide reasonable assurance that all production problems are resolved,
                      and include such a limitation in their written agreement; and

           3)	        Explore the feasibility of design changes that might lessen the potential for
                      production problems for future redesigned denominations.

One of the provisions of the 1998 MOU called for the Board and the BEP to mutually agree upon
a limited initial production quantity of newly designed currency to ensure that all technical
problems were resolved prior to full production.

Objective 2: Review the actions RBOPS is taking to (a) address the current printing
problems, including the contract for an independent technical review, and (b) enhance
controls to minimize the likelihood of future printing problems

The Board has taken steps to address the current creasing problem and enhance controls in future
printing. An initiative began in December 2009 to improve the overall quality of notes produced
at the BEP. This initiative included hiring management consultants in October 2010 to
recommend improvements for the overall quality control of note production at the BEP. The
                                                            
              4
          A previous MOU from 1981 between the Board and the BEP only addressed the basic authority,
responsibilities, and understandings regarding the supply of U.S. currency.

                                                               10 

 
 


Board recognized the need to review the quality control practices at the BEP for several reasons.
First, processes for printing Federal Reserve notes have become increasingly more complex over
time, driven largely by the need to deter counterfeiting. Second, the Board has become more
involved in note design, testing, and production to meet its responsibilities to ensure the quality
of notes in circulation.5 Third, going forward, the BEP will implement new quality control
practices for printing other denominations, and the Board will participate in setting and
approving the quality standards.

In October 2010, the Board contracted with management consultants to

       	 improve the consistency of high-quality notes delivered from the BEP to the Board,
       	 ensure the security of and reduce the functional failures of notes in circulation, and
       	 optimize the cost effectiveness of Federal Reserve note production by reducing spoilage
          and eliminating costs associated with errors in raw material and production.

In February 2011, the Board expanded the scope of this contract to incorporate an independent
review of the NXG $100 note creasing problem to provide a level of confidence that creasing
would not recur, after the BEP and the paper manufacturer were unable to identify the root cause.
In April 2011, the consultants provided an interim report with recommendations addressing the
creasing issue.

After more than five months of testing that resulted in the BEP and the paper manufacturer
modifying their production process to incorporate the consultants’ recommendations, Board
officials indicated that the creasing problem had been mitigated to negligible levels. As part of
the ongoing effort to understand the cause of the creasing, Board staff made several on-site visits
to the BEP and the paper manufacturing company. To enhance controls and minimize the
likelihood of future printing problems during NXG $100 note production, the BEP, with
assistance from the consultants, drafted a detailed production validation test plan.6

In August 2011, the Board, the BEP, the paper manufacturer, and the management consultants
agreed on a production validation strategy featuring a continued uninterrupted production
schedule. To formalize this agreement, the Board and the BEP signed a Mutual Agreement for
Production Validation document in September 2011. Both organizations agreed to a “production
validation protocol and the related volume of notes and quality criteria.” The validation process
would examine raw material improvements, printing press modifications, and a crease detection
system to ensure that all processes are sufficiently robust to sustain long-term production with a
manageably low level of creasing. The initial production validation would consist of printing 81


                                                            
              5
           RBOPS reorganized the section responsible for cash and currency into two business areas, the Banknote
Planning and Quality Control section and the Banknote Issuance and Cash Operations section, to better address
currency production issues and the Reserve Bank oversight responsibilities.
         6
           The objectives of this production validation are to (1) validate that the resolution to the NXG $100 note
creasing issue was sufficiently robust to sustain long-term production with a manageably low level of creasing and
(2) gain confidence that production is ready for routine full-scale production with the ability to sustain annual
demand.

                                                               11 

 
 


loads of paper over a 3-week period.7 Production validation began in September 2011 at the
WCF and is anticipated to start at the ECF in March 2012.

Objective 3: Assess plans for the disposition of NXG $100 notes that have already been
printed
 
As of July 2011, there are approximately 1.4 billion NXG $100 notes stored in the ECF and the
WCF, including packaged individual notes ready for shipment to the Federal Reserve Banks and
sheets of notes that are in various stages of completion. The BEP’s current printing process
includes a step to inspect sheets of printed Federal Reserve notes prior to them being cut into
individual notes; there is presently no efficient method to inspect and detect creasing on already
cut individual notes. In order to inspect individual notes, a new system for single note inspection
(SNI) must be developed.

In July 2011, the BEP conducted a cost-benefit analysis to assess alternatives for the disposition
of the printed NXG $100 notes. The BEP’s analysis determined that the cost to reclaim notes of
an acceptable quality through an SNI system would be less than the replacement cost.8 The BEP
presented two options to the Board for processing the notes through SNI systems. One option is
for the BEP to procure the SNI systems and process the notes at both BEP facilities. The other
option is for the Board to procure the SNI systems and process the cut notes at two Federal
Reserve Banks. As of August 11, 2011, Board staff indicated that there is no significant cost
savings associated with processing the notes at the Federal Reserve Banks. Board staff also
noted that certain costs were not included as part of the cost-benefit analysis and stated that it
makes better business sense to process the notes at the BEP, since SNI systems will likely be
incorporated into the BEP note inspection process going forward, which will require the BEP to
have the machines set up in its facilities.9

The BEP started the process to procure SNI systems, and Board staff stated that the sensor
capability of these systems will need to be clearly understood for the Board to establish
acceptable quality standards. Implementation of these standards will result in the delivery of
high quality notes and reduce waste as much as possible. Officials also commented that
resolving the creasing issue and returning to production takes priority over plans for the
disposition of the NXG $100 notes.

Findings and Recommendations
 
We believe that actions the Board has taken appropriately addressed the identified printing
problems and enhanced controls to minimize the likelihood of future printing problems. In
addition, we determined that Board staff is participating in the assessment of plans for the
disposition of the 1.4 billion NXG $100 notes. We identified three areas however, where the

                                                            
              7
           An NXG $100 note load is 16,000 sheets of paper; each sheet contains 32 notes.
              8
           The replacement cost would include the cost of destroying all of the NXG notes in the inventory and
printing new notes.
         9
           BEP expects to continue to use the SNI systems and reclaim currency of other denominations after all
NXG $100 notes are processed.

                                                               12 

 
 


Board’s oversight of the Federal Reserve note design and quality control production process
could be strengthened:

       	 Board staff should comply with requirements in the MOU, in coordination with the BEP;

       	 The ICD workgroup should operate under a charter signed by the ACD Steering 

          Committee; and 


       	 The current MOU between the Board and the BEP should be updated and expanded to
          incorporate the increased complexity of note design, quality control, and production.

Although the Product Quality section of the 1998 MOU required the Board and the BEP to agree
on a “limited initial production quantity of newly designed currency” to ensure that “all technical
problems are identified and resolved prior to [starting] full production,” there was no evidence
that such an agreement was reached for printing the NXG $100 note, nor was production
validation performed to resolve all problems. Our analysis of the ICD workgroup meeting
minutes, the BEP status reports, ACD Steering Committee minutes, and interviews revealed that
excess paper or paper fiber—referred to as “trash”—resulted in defective notes during
preproduction as early as October 2009 and was identified as a significant problem.10 The
problem with trash was not corrected, however, and continued into full production, resulting in
several work stoppages in February and April 2010.

Interviews with Board staff and BEP senior officials revealed that an agreement or consensus
was not established for the NXG $100 note to define what constituted a “limited initial
production quantity of newly designed currency.” When questioned about an agreed-upon initial
quantity, senior officials and staff provided a variety of responses that included (1) not knowing
what that quantity was, (2) quantities were consistent with prior practices, (3) preproduction
testing had been done at every level as features were added or removed, and (4) the agreed
amount was between 40 and 60 loads.

The 1997 GAO testimony included a recommendation that the Board, the USSS, the BEP, and
other Treasury officials inspect the quality of note production earlier in the production process.
In 1997, the Board did not inspect production run notes until approximately 200 million $50
notes had been printed. As a result, the GAO testimony recommended that the Secretary of the
Treasury and the Board limit initial production of newly designed currency to the number that
would be necessary to provide reasonable assurance that all production problems are resolved
and include such a limitation in their written agreement. Despite the events in 1997, in early
2010, two months after full production of the NXG $100 note began, Board representatives
noticed a quality issue with the new notes during a visit to the BEP, and production was
temporarily stopped after over 166 million notes had been printed.

We believe that starting full production without an agreed-upon limited initial production
quantity and ensuring that all preproduction problems were identified and resolved was
inconsistent with the principles set forth in the 1998 MOU. We are not making a
                                                            
              10
            Trash is excess paper or paper fiber that attaches to rollers during the printing process, resulting in the
printing of unacceptable notes.

                                                               13 

 
 


recommendation regarding this issue because, as discussed earlier in our report, the Board and
the BEP agreed in September 2011 on a limited initial production quantity to perform the NXG
$100 note production validation for the restart of production. In addition, the new-signed
production validation agreement is intended to ensure that all technical problems are identified
and resolved prior to restarting full production of the NXG $100 note. However, below are two
recommendations regarding the absence of an approved and signed ICD charter and an updated
MOU.

1.	 We recommend that the Deputy Director of RBOPS continue working with other ACD
    Steering Committee members to approve an ICD charter.

ICD members have been participating in this workgroup for several years without a final,
approved charter. The draft ICD charter defines the roles and responsibilities between the Board,
the BEP, the USSS, and the CTO, as it relates to note design and counterfeit deterrence. One
function of the ICD workgroup is to provide technical assistance and guidance to the design
process and ensure the proposed designs can be authenticated and are able to be used on all
Federal Reserve System equipment. The group also evaluates and recommends security features
for currency designs and provides advice on technical and design issues that may affect the
integrity of Federal Reserve notes. In addition, the ICD workgroup apprises and makes
recommendations to the ACD Steering Committee of any issues affecting changes in the design
of the note.

Regarding discussions concerning ways to improve the charter, a May 2008 document indicated
that the workgroup’s members showed a general frustration with the operation of the ICD.
Issues discussed included that the ICD workgroup was not functioning as well as desired and that
there was uncertainty about what issues should be elevated to the ACD Steering Committee and
how the ACD Steering Committee wants information forwarded from the ICD workgroup. ACD
Steering Committee minutes from November 2009 supported the notion that the ICD workgroup
was not functioning as expected. Over the course of that year, the ICD workgroup revised the
draft charter and sent it to the ACD Steering Committee for review and approval. However, the
draft has not been approved or signed. We believe that having an approved charter will provide
the clarity necessary to address frustrations and would foster a more effective and productive
ICD workgroup.

2.	 We recommend that the Director of RBOPS work with the BEP to update their MOU
    and ensure that the language and content of the ICD charter and the MOU are
    consistent.

The 1998 MOU between the Board and the BEP describes certain authorities, responsibilities,
and agreements between the Board and the BEP to authorize the printing and shipping of Federal
Reserve notes. In addition, it prescribes procedures for the destruction of unfit currency and
charges to the Board for operations relating to the production and retirement of Federal Reserve
notes by the BEP. The 1998 MOU is outdated, incomplete, and vague.

For example, the MOU contains references to several agency offices, such as the Reserve Banks’
Cash Fiscal Product Office and BEP’s Securities Technology Institute, that no longer exist. The

                                               14 

 
 


functions that these offices were performing are currently being executed by the ICD workgroup
and the Reserve Banks’ CPO.

In addition, the MOU is incomplete with respect to timely notification of quality control
problems. Specifically, the MOU does not have a notification timeframe when problems must be
disclosed to the other agency when either the Board or the BEP discovers that a product does not
conform to acceptable quality levels. We believe that an extended delay in notification may
result in unnecessary additional costs being incurred if appropriate measures to quickly resolve
or to prevent recurrence of the problem are not taken.

Furthermore, as discussed earlier, during our interviews with several senior staff, we discovered
that there was no clear consensus on what constituted a “limited initial production quantity of
newly designed currency.” We believe this confusion stemmed from the MOU’s incomplete and
vague language. The MOU also does not address specific topics that are critical to the
development of a new currency design, such as project plan development, project management,
and new design change control.

As the design, development, production, and product quality processes for Federal Reserve notes
have become more complex over time, these processes should have become more collaborative
between the two agencies. While the Board and the BEP have begun to update the MOU, they
have not finalized the document and have yet to reach consensus on updated roles and
responsibilities between the agencies for the design and development processes. Without a clear
and updated MOU, we believe that confusion over the roles and responsibilities between the
Board and the BEP will continue and that problems encountered during the redesign of the NXG
$100 note could surface again during future redesigns.

Analysis of Comments
We provided a copy of our report to the Director of RBOPS for review and comment. In her
response, included as Appendix 2 to this report, the Director noted that the Board and the BEP
did not establish a limited initial production quantity before full production as required by the
MOU but that even if a limited initial production quantity had been established, the creasing
problem would not have been identified. Systemic creasing did not occur until after a large
quantity of notes had been produced, and the initial quantity would have been far below this
level. With respect to recommendation 1, the Director agreed to work with members of the ACD
Steering Committee to finalize the ICD charter. With respect to recommendation 2, the Director
noted that an MOU between the Board and the BEP was finalized and signed on December 22,
2011, which was while the formal draft of our report was out for comment.




                                               15 

 
 




 
 




    Appendixes 





 
 




 
   


  Appendix 1 – Timeline
  Date                                                       Event
     2000 NXG redesign project initiated.
     2002 The BEP and the Board announced plans to release the next generation of redesigned notes. NXG
          project originated for $20s, $50s, and $100s. Redesigns for the $10s and $5s were still under
          consideration.
     2006 Product development for the NXG $100 note started.
     2007 Production of the NXG $100 note was originally scheduled for March 2008; and unveiling was
          scheduled for April 2008, with issuance to the public in October 2008. Because of issues identified
          with the paper, the unveiling date was moved to October 2008.
     2008 The paper manufacturer continued to have challenges due to the complexity of the design and quality
          requirements of the 3-D security ribbon.
Feb 2009 The new target for unveiling the NXG $100 note was September 2009.
Sep 2009 The BEP expected to transition into production in November 2009 at ECF and December 2009 at
          WCF.
Oct 2009 ICD workgroup meeting minutes noted the decision made by the BEP to remove a feature from the
          NXG design.
          The BEP indicated that a significant amount of the NXG $100 note paper was contaminated with
          “trash.”
Nov 2009 The paper manufacturer continued to have problems with the paper production, specifically with the
          3-D security ribbon. ICD workgroup meeting minutes mentioned adding a new security feature to
          the NXG $100 note, and members discussed that the manufacturer was having technical issues with
          the feature that required further quality control.
Dec 2009 Board staff, in collaboration with the BEP, planned to establish a quality assurance program for U.S.
          currency to ensure that all notes met the needs of the Federal Reserve and the public. Staff planned
          to engage outside consultants to assist in the development of this program.
 Jan 2010 The USSS provided a statement indicating that implementing the new security feature mentioned in
          the November 2009 ICD workgroup meeting minutes was important to prevent counterfeiting.
          The BEP indicated that the limited testing performed to date showed no evidence that the new feature
          would create a problem in its manufacturing systems or on finished banknotes.
          Both BEP facilities (ECF and WCF) started production of the NXG $100 note.
Mar 2010 The Board and the USSS representatives visited the BEP and discovered a quality issue with the note.
          As a result, the BEP stopped production temporarily to fix the quality issue identified.
Apr 2010 On April 21, officials from the Board, the Department of the Treasury, and the USSS unveiled the
          new design for the NXG $100 note and announced that it would be issued on February 10, 2011.
Jun 2010 WCF was processing approximately 200,000 NXG $100 note sheets daily. The plan was to provide
          the Board with 2 billion notes by February 2011.
 Jul 2010 WCF experienced severe creasing. Creasing was also seen at the ECF, but initially not as severe as
          the WCF.
Aug 2010 The BEP was in jeopardy of not being able to meet the NXG $100 delivery requirements.
Aug-Dec The BEP was working with the paper manufacturer to understand and correct the creasing problem
     2010 through eight paper trials.
Sep 2010 WCF ceased NXG $100 note production–converted NXG $100 press lines to other denominations.
          ECF reduced NXG $100 note production and began preparations for resuming the currently used
          $100 note production.
Oct 2010 The Board announced a delay in issuance of the NXG $100 note.
          The Board awarded a “Quality Assurance for Federal Reserve Notes” contract to a consulting firm on
          October 6 (not specifically for the creasing issue).


                                                    19 

   
   


  Appendix 1 – Timeline (continued)

Dec 2010 Testing to determine the cause of creasing continued.
Feb 2011 The Board expanded an October 6, 2010, contract with a private consulting firm to conduct a failure
          analysis of the creasing issue and validate paper manufacturer/BEP conclusions regarding the
          resolution of the creasing problem.
Apr 2011 The private consulting firm issued an interim report on its “Evaluation of the Creasing Issue.”
Jun 2011 Research efforts for an SNI system were in process.
 Jul 2011 The latest test data showed a reduction in creasing to extremely low, manageable levels. Cost/benefit
          analysis for an SNI system was developed and submitted to RBOPS.
Sep 2011 The production validation phase started at the WCF.
   




                                                     20 

   
 


Appendix 2 – Division Director’s Comments

                                     BOARD OF GOVERNORS 

                                               OF THE 

                               FEDERAL RESERVE SYSTEM
                                       WASHINGTON, D.C. 20551


                                                                                      LOUISE L. ROSEMAN
                                                                                               DIRECTOR
                                                                                             DIVISION OF
                                                                               RESERVE BANK OPERATIONS
                                                                                  AND PAYMENT SYSTEMS




                                                                                     January 3, 2012


Mr. Mark Bialek
Inspector General
Office of the Inspector General
Board of Governors of the Federal Reserve System
Washington, DC 20551

Dear Mark:

                We appreciate the opportunity to review the Office of Inspector General’s draft
report entitled Review of RBOPS Oversight of the Next Generation $100 Note. We are pleased
with the OIG’s findings that the actions the Board has taken appropriately address the current
printing problems and enhance controls to minimize the likelihood of future printing problems.
As the report notes, Board staff is participating in the assessment of plans for the disposition of
the 1.4 billion $100 notes printed that may contain various defects, including creasing.

                We expect that the new production validation process we are working with the
BEP to implement will provide a more effective method to identify and resolve technical
problems before beginning full-scale production of any new note designs. The new process
replaces the requirement in the 1998 memorandum of understanding (MOU) between the Board
and the BEP that required the two agencies to agree to a limited initial production quantity of
newly designed currency before starting full-scale production. The BEP and the Board did not
establish an initial production quantity before production began on the next generation $100
note, and even if we had done so, it would not have identified this particular problem. Systemic
creasing did not occur until after a large quantity of notes had been produced, and a limited
initial production quantity would have been far below this level. In addition, we were informed
by the BEP that it had successfully completed pre-production testing before it began full
production.

        As you know, in response to the continuing quality problems at the BEP, RBOPS was in
the process of enhancing its oversight of the BEP at the time of your assessment. First, we
reorganized our Cash section into two sections to allow some staff to focus more closely on BEP
quality assurance. In addition, we hired a consultant to review the BEP’s quality assurance


                                                 21 

 
 


Appendix 2 – Division Director’s Comments (continued)

system and to assist the BEP in correcting any deficiencies. Finally, we worked with the BEP on
a new MOU to define more explicitly roles and responsibilities regarding note design,
development, and production; quality assurance and standards; corrective and preventative
actions; change control; and oversight of the BEP.

               We recently finalized the new MOU; the Treasurer of the United States and I
signed it on behalf of the BEP and the Board on December 22, 2011. The MOU took effect on
that date. As recommended in your report, we will work with the other members of the
Advanced Counterfeit Deterrence Steering Committee to finalize the Interagency Currency
Design workgroup charter.

                 We thank the review team for its collaboration with RBOPS staff, and we
appreciate the constructive feedback we received. We have provided technical comments on the
draft report to the review team under separate cover.

                                          Sincerely,
                  

                  




                                              22 

 
 


Appendix 3 – Office of Inspector General Principal Contributors to This
            Report

Victor Calderon, Project Leader and Senior Information Technology Auditor

David Horn, Auditor

Timothy P. Rogers, Office of Inspector General Manager




                                             23 

 
 


 




 
